Supreme Cou^ i, U.S.
FILED

DEC 2 0 2020
No. 20-6489

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

\

MARIO ALLAN MONTANO, APPLICANT,
v.
IVY ALICE WIMMER, RESPONDENT.

EMERGENCY APPLICATION FOR A STAY OF EXECUTION PENDING THE
DISPOSITION OF THE PETITION FOR WRIT OF CERTIORARI
To the HONORABLE BRETT M. KAVANAGH, Associate Justice of the Supreme Court
of the United States of America and Circuit Justice for the 6th Circuit:

Mario Allan Montano
Applicant, In Pro Se
3647 Springdale Dr.
Little River, SC 29566
(843) 582-7503
almontano29582@gmail.com
December 20, 2020

RECEIVE!.
DEC 3 0 2020

LIST OF PARTIES
Pursuant to SCt. Rule 14, the following is a list of all parties to the proceeding in the court
whose judgments are sought to be reviewed:
1. APPLICANT - Mario Allan Montano residing at 3647 Springdale Dr., Little
River, SC 29566.
2. RESPONDENT — Ivy Alice Wimmer residing at 2121 Penway Ct., Flint, MI
48532.
LIST OF CASES
1. Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
Judgment entered on May 6, 2013.
2. Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).
Judgment entered on June 20, 2017.
3. Wimmer v. Montano, 353685 (Mich. Ct. App. July 14, 2020). Order entered on
July 14, 2020.
4. Wimmer v. Montano, 353753 (Mich. Ct. App. July 14, 2020). Order entered on
July 14, 2020.
5. Wimmer v. Montano, 353820 (Mich. Ct. App. July 14, 2020). Order entered on
July 14, 2020.
6. Wimmer v. Montano, 161466, 161645 (Mich. October 5, 2020). Order entered
on October 5, 2020.
7. Wimmer v. Montano, 161471, 161666 (Mich. October 5, 2020). Order entered
on October 5, 2020.
8. Wimmer v. Montano, 161473, 161668 (Mich. October 5, 2020). Order entered
on October 5, 2020.

ii

TABLE OF CONTENTS
LIST OF PARTIES

ii

LIST OF CASES

ii

INDEX OF APPENDICES

iv

TABLE OF AUTHORITIES CITED

vi

*

OPINIONS BELOW

1

STAY OF EXECUTION DENIED BY LOWER COURTS

2

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

4

APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT

4

ORDER TO STAY IN THE STATE OF MICHIGAN 6™ JUDICIAL CIRCUIT COURT....5
ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS
ORDERS TO STAY IN THE MICHIGAN SUPREME COURT

6
10

REASONS FOR GRANTING THE APPLICATION

12

CONCLUSION

14

iii

INDEX OF APPENDICES
Appendix A

Surety Bond Order against the Applicant issued by the State of
Michigan, 6th Judicial Circuit Court in No. 2017-854298-PP on May
11, 2020.

Appendix B

Decision of the Michigan Court of Appeals Dismissing No. 353685 on
July 14, 2020.

Appendix C

Decision of the Michigan Court of Appeals Dismissing No. 353753 on
July 14, 2020.

Appendix D

Decision of the Michigan Court of Appeals Dismissing No. 353820 on
July 14, 2020.

Appendix E

Decision of the Michigan Supreme Court Dismissing No. 161466,
161645 on October 5, 2020.

Appendix F

Decision of the Michigan Supreme Court Dismissing No. 161471,
161666 on October 5, 2020.

Appendix G

Decision of the Michigan Supreme Court Dismissing No. 161473,
161668 on October 5, 2020.

Appendix H

Applicant’s Ex Parte Motion to Stay the Execution of the Surety Bond
filed with No. 2017-854298-PP on November 23, 2020.

Appendix I

Rejection of Applicant’s Motion filed with No. 2017-854298-PP on
November 23, 2020.

Appendix J

Applicant’s Motion to Stay the Execution of the Order Dismissing No.
353685 on December 7, 2020.

Appendix K Applicant’s Motion to Stay the Execution of the Order Dismissing
353753 on December 7, 2020.
Appendix L

Rejection of Applicant’s Motion filed with No. 353685 on December 7,
2020.

Appendix M

Rejection of Applicant’s Motion filed with No. 353753 on December 7,
2020.

Appendix N

Applicant’s Motion to Stay the Execution of the Order Dismissing No.
161466, 161645 on December 8, 2020.

Appendix O

Applicant’s Motion to Stay the Execution of the Order Dismissing No.
161471, 161666 on December 8, 2020.
IV

Appendix P

Rejection of Applicant’s Motion filed with No. 161466, 161645 on
December 8, 2020.

Appendix Q

Rejection of Applicant’s Motion filed with No. 161471, 161645 on
December 8, 2020.

Appendix R

Applicant’s Motion to Stay the Execution of the Order Dismissing No.
353820 on December 18, 2020.

Appendix S

Rejection of Applicant’s Motion filed with No. 353820 on December 19,
2020.

Appendix T

Applicant’s Motion to Stay the Execution of the Order Dismissing No.
161473, 161668 on December 19, 2020.

Appendix U

Rejection of Applicant’s motion filed with No. 161473, 161668 on
December 19, 2020.

Appendix V

Decision of the Michigan Supreme Court Granting the Applicant a Fee
Waiver in No. 161121 on March 18, 2020.

Appendix W

Record of Case No. 353685.

Appendix X

Record of Case No. 353753.

Appendix Y

Record of Case No. 353820.

Appendix Z

Record of Case No. 161466, 161645.

Appendix AA Record of Case No. 161471, 161666.
Appendix BB Record of Case No. 161473, 161668.

v

TABLE OF AUTHORITIES CITED
PAGE NUMBER

Cases
Reynolds v Hasbany MD PLLC, 323 Mich App 426,__ (2018)

10

Constitutional Law
Mich. Const. Art. I § 2........
U.S. Const. Amend. V........
U.S. Const. Amend. XIV § 1

4, 10, 12
4

4, 10, 12

Statutory Law
28U.S.C. §2101(f).
MCL 600.244(1 )(d)

4
4

Court Rules
MCR 2.109(A)...
MCR 2.614(A)(1)
MCR 7.201(B)(3),
MCR 7.201(D)....
MCR 7.205.........
MCR 7.216(A)(7)
MCR 7.216(C)...
MCR 7.303(B)(1).
MCR 7.315(D)....
MCR 7.319(C)....
MCR 8.119(C)....
SCt. Rule 14.......
SCt. Rule 23.......

5
5
8

9
9
10
8,9
7,8

11, 12
11, 12
10
ii
4

Other Authorities
IOP 7.216(C)............

9

vi

No. 20-6489
IN THE
SUPREME COURT OF THE UNITED STATES
EMERGENCY APPLICATION FOR A STAY PENDING THE DISPOSITION OF A
PETITION FOR WRIT OF CERTIORARI
The Applicant prays that a stay of execution pending the disposition of the Petition for Writ
of Certiorari be issued on the judgments below.
OPINIONS BELOW
The unpublished judgments of the Michigan Supreme Court (“MSC”), the court of last
resort in the State of Michigan to be addressed are:
1. Decision dismissing case No. 161466, 161645 and issuing a filing injunction
against the Applicant issued on October 5,2020 (Appendix E).
2. Decision dismissing case No. 161671, 161666 and issuing a filing injunction

against the Applicant issued on October 5, 2020 (Appendix F).
3. Decision dismissing case No. 161673, 161668 and issuing a filing injunction

against the Applicant issued on October 5, 2020 (Appendix G).
The unpublished judgments of the Michigan Court of Appeals (“COA”) to be addressed
are:
1. Decision dismissing case No. 353685, sanctioning the Applicant $750 and
issuing a filing injunction against the Applicant on July 14, 2020 (Appendix
B).
2. Decision dismissing case No. 353753, sanctioning the Applicant $750 and

issuing a filing injunction against the Applicant on August 11, 2020 (Appendix
C).
3. Decision dismissing case No. 353820, sanctioning the Applicant $750 and

issuing a filing injunction against the Applicant on August 11, 2020 (Appendix
E).

The judgment of the State of Michigan, 6th Judicial Circuit Court to be addressed is the
issuance of a surety bond filing injunction against the Applicant in 2017-854298-PP on May 11,
2020 (Appendix A at 5 % 1).

STAY OF EXECUTION DENIED BY LOWER COURTS
The Applicant filed a Motion for an ex parte stay of the surety bond order pending filing
and disposition of a Petition for Certiorari with case 2017-854298-PP on November 23, 2020
(Appendix H). The Clerk of the Court rejected the motion because the Applicant did not pay the
surety bond of $2,500 that he was seeking a stay from on November 23, 2020 (Appendix I). The
Michigan 6th Judicial Circuit Court effectively denied the Applicant’s petition for a stay of the
order in Appendix A by rejecting his motion.
The Applicant filed motions to stay the orders dismissing No. 353685 (Appendix J) and
No. 353753 (Appendix K) on December 7, 2020. The Clerk of the COA rejected both motions on
December 7, 2020 (Appendices L-M). Both motions were rejected because the Applicant had not
paid the sanctions in the orders he was seeking to stay. The rejection of the motions effectively
denied the Applicant’s petitions to stay the orders in Appendices B-C.
The Applicant filed a motion to stay the order dismissing No. 353685 and the order
dismissing No. 161466,161645 with the MSC on December 8,2020 (Appendix N). The Applicant
filed a motion to stay the order dismissing No. 353753 and the order dismissing No. 161471,
161666 with the MSC on December 8, 2020 (Appendix O). The Clerk of the MSC rejected both
motions on December 8,2020 (Appendices P-Q). The rejection reason was that the Applicant had
not paid the sanctions in the orders he sought a stay from. The rejections resulted in the denial of
a stay of execution by the MSC of the orders in Appendices B-C and E-F. Both the COA and the

2

MSC denied a stay of execution of the orders in Appendices B-C and E-F. There is no other lower
court that can grant a stay of execution of the orders.
The Applicant filed a Motion to Stay the Execution of the Bond Order in Appendix A and
the COA Dismissal in Appendix E with No. 353820 on December 18, 2020(Appendix R) . The
COA rejected the motion because the Applicant had not paid the sanctions in Appendix E, the
order he was trying to stay (Appendix S). The rejection of the motion effectively denied a stay of
execution of the Bond Order and the COA Dismissal by the COA. The Applicant filed a Motion
to Stay the Execution of the Bond Order in Appendix A, the COA Dismissal in Appendix E and
the MSC Dismissal in Appendix G with No. 161473, 161668 on December 19, 2020 (Appendix
T). The Clerk of the Court rejected the Applicant’s Motion for not paying the filing fee (Appendix
U). The filing fee had been conditionally waived pending the MSC’s review of the Applicant’s
motion to waive the fee. The Applicant is indigent and cannot afford the fees. The MSC therefore
denied the Applicant’s stay of execution.
Based on the actions of the 6th Judicial Circuit Court, COA and the MSC the Applicant’s
motions to stay the execution of orders in Appendices A-G have been denied by all courts that had
jurisdiction to grant the stays in the state of Michigan.

JURISDICTION
The Applicant filed a Petition for Writ of Certiorari appealing the orders of the MSC in
case Nos. (161466,161645), (161471,161666) and (161473, 161668) on November 9, 2020. The
case of Mario Allan Montano v. Ivy Alice Wirnmer1 (“this case”) was docketed with the Court on
December 1,2020.

Mario A llan Montano v. Ivy A lice Wimmer, No. 20-6489 (U.S.).

3

This Court may grant the requested stay of execution pursuant to SCt. Rule 23.1. This
application is presented to this Court pursuant to SCt. Rule 23.2 and 28 U.S.C. §2101 (f). The
Applicant has shown his attempt and failure to obtain a stay from all lower courts who could grant
such a stay meeting the expectations in SCt. Rule 23.3.
This Court has jurisdiction and all expectations have been met for this Court to issue a
ruling on this application for a stay of execution.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. U.S. Const. Amend. V.
2. U.S. Const. Amend. XIV § 1.
3. Mich. Const. Art. I § 2.

STATEMENT OF THE CASE
The Honorable Kameshia D. Gant (“Judge Gant”) was assigned to the case of Montano v.
Montano2 (“2012-802216-DO”) and Wimmer v. Montano3 (“2017-854298-PP”) on May 4, 2019.
APPLICANT IS INDIGENT ACCORDING TO THE MICHIGAN SUPREME COURT
Chief Justice Bridget M. McCormack of the MSC issued an order granting the Applicant a
waiver of filing fees in the case of Wimmer v. Montano4 (“No. 161121”) on March 18, 2020
(Appendix V). The fee to file a regular motion in the MSC is $75 pursuant to MCL 600.244(1 )(d).
By issuing such an order. Chief Justice McCormack affirmed that the Applicant could not afford
$75 to pay for a motion fee.

2 Montano v. Montano, 2012-802216-DO (6th Mich. Cir. Ct. March 28, 2013).
3 Wimmer v. Montano, 2017-854298-PP (6th-Mich. Cir. Ct. June 20, 2017).
4 Wimmer v. Montano, 161121 (Mich. May 26, 2020).

4

ORDER TO STAY IN THE STATE OF MICHIGAN 6th JUDICIAL CIRCUIT COURT
“On motion of a party against whom a claim has been asserted in a civil action, if it
appears reasonable and proper, the court may order the opposing party to file with the court
clerk a bond with surety as required by the court in an amount sufficient to cover all costs and
other recoverable expenses that may be awarded by the trial court.” MCR 2.109(A).
Judge Gant issued a sua sponte Opinion and Order in No. 2017-854298-PP on May 11,
2020 (Appendix A). The Opinion and Order issued was not in response to any motion by either
party and was issued without a hearing. The Opinion and Order stated that the Applicant was
required to purchase and post a surety bond in the amount of $2,500 for every motion, objection
and pleading filed with No. 2017-854298-PP and that failure to do so would result in a rejection
of the filing (“Bond Order”) {Id. at 5 $ 1). Judge Gant did not have jurisdiction to issue the Bond
Order pursuant to MCR 2.109(A).
“If a motion for new trial, a motion for rehearing or reconsideration, or a motion for other
relief from judgment is filed and served within 21 days after entry of the judgment or within further
time the trial court has allowed for good cause during that 21 -day period, execution may not issue
on the judgment and proceedings may not be taken for its enforcement until the expiration of 21
days after the entry of the order deciding the motion” MCR 2.614(A)(1).
The Applicant filed a Motion for Relief from the Bond Order on May 26, 2020 (15 days
after the order was issued). The clerk of Judge Gant’s Court rejected the Applicant’s motion
because he had not paid the bond for the motion. Judge Gant violated MCR 2.614(A)(1) by not
honoring an automatic stay of execution of the bond order allowing the Applicant to file his motion
for relief. The Applicant was not given any opportunity to oppose the sua sponte Bond Order
without the order being executed upon him in the Trial Court.
The Applicant is indigent and cannot afford to pay $2,500 to file a motion in No. 2017854298-PP to defend himself. The Applicant has been deprived of any ability to defend himself
in any manner in 2017-854298-PP since May 11, 2020 due to the Bond Order he seeks a stay of
pending disposition of the Petition.

5

ORDERS TO STAY IN THE MICHIGAN COURT OF APPEALS
Judge Gant issued two orders in No. 2012-802216-DO refusing to issue a ruling on two
different Applicant motions on May 11, 2020. The Applicant filed an application for leave to
appeal the two orders and a motion to waive fees with the COA initiating the case of Wimmer v.
Montano5 (“353685”) on May 29, 2020. The Petition for Writ of Certiorari (“Petition”) reveals
that the Applicant was entitled to a fee waiver based on the contents of his motion to waive fees in
case No. 353685 and Michigan legal authority. The record of No. 353685 is presented in Appendix
W.
Judge Gant issued three orders in No. 2012-802216-DO refusing to issue a ruling on three
different Applicant motions on May 20, 2020. The Applicant filed an application for leave to
appeal the three orders and a motion to waive fees with the COA initiating the case of Wimmer v.
Montano6 (“353753”) on June 5, 2020. The Petition for Writ of Certiorari (“Petition”) reveals
that the Applicant was entitled to a fee waiver based on the contents of his motion to waive fees in
case No. 353753 and Michigan legal authority. The record of No. 353753 is presented in Appendix
X.
The Honorable Elizabeth L. Gleicher (“Judge Gleicher”) issued an order denying the
Applicant’s Motion to Waive Fees in No. 353685 on June 9, 2020 (Appendix W at 1, Event 8).
The Applicant filed an interlocutory application for leave to appeal the order denying the fee
waiver and a motion to waive fees with the MSC on June 14, 2020. The case of Wimmer v.
Montano1 (“161466”) was initiated with the MSC on June 14, 2020.

The MSC obtained

discretionary review jurisdiction over the order denying a fee waiver in No. 353685 pursuant to

5 Wimmer v. Montano, 353685 (Mich. Ct. App. July 14, 2020).
6 Wimmer v. Montano, 3537 53 (Mich. Ct. App. July 14, 2020).
1 Wimmer v. Montano, 161466 (Mich. October 5, 2020).

6

MCR 7.303(B)(1) on June 14, 2020. The order denying a fee waiver was not final as of June 14,
2020.
The Applicant filed an application for leave to appeal the bond order and a motion to waive
tees with the COA initiating the case of Wimmer v. Montano8 (“353820”) on June 15, 2020. The
Petition for Writ of Certiorari (“Petition”) reveals that the Applicant was entitled to a fee waiver
based on the contents of his motion in case No. 353820 and Michigan legal authority. The record
of No. 353820 is presented in Appendix Y.
Judge Gleicher issued an order denying the Applicant’s Motion to Waive Fees in No.
353753 on June 16, 2020 (Appendix X at 2, Event 10). Judge Gleicher issued an order denying
the Applicant’s Motion to Waive Fees in No. 353820 on June 16, 2020 (Appendix Y at 1, Event
8). The Applicant filed an interlocutory application for leave to appeal the order denying the fee
waiver in No. 353753 and a motion to waive fees with the MSC on June 16, 2020. The case of
Wimmer v. Montano9 (“161471”) was initiated with the MSC on June 16, 2020. The Applicant
filed an interlocutory application for leave to appeal the order denying the fee waiver in No.
353820 and a motion to waive fees with the MSC on June 16, 2020. The case of Wimmer v.
Montano10 (“161473”) was initiated with the MSC on June 16, 2020. The MSC obtained
discretionary review jurisdiction over the orders denying a fee waiver in No. 353753 and No.
353820 pursuant to MCR 7.303(B)(1) on June 16, 2020. The orders denying a fee waiver were
not final as of June 16, 2020.
The records of No. 353685 (Appendix W), No. 353753 (Appendix X) and No. 353820
(Appendix Y) reveal the fact that the opposing party did not a file a single document or contest

8 Wimmer v. Montano, 3 5 3 8 2 0 (Mich. Ct. App. July 14, 2020).
9 Wimmer v. Montano, 161471 (Mich. October 5, 2020).
10 Wimmerv. Montano, 161473 (Mich. October 5, 2020).

7

any of the cases. There is no evidence that the opposing party spent any money or effort relative
to the three cases.
The MSC had discretionary review jurisdiction over the orders denying a fee waiver in
cases No. 353685, No. 353753 and No. 353820 as of July 14, 2020. The orders denying a fee
waiver WERE NOT final as of July 14, 2020. The Honorable Christopher M. Murray (“Chief
Judge Murray”) issued orders dismissing cases No. 353685 (Appendix B), No. 353753
(Appendix C) and No. 353820 (Appendix D) on July 14, 2020.
All three cases were dismissed for the Applicant’s failure to pay the court fees by Chief
Judge Murray pursuant to MCR 7.201(B)(3).
“If a case is accepted for filing without all of the required documents, transcripts, or fees,
the appellant, or the plaintiff in an original action under MCR 7.206, must supply the
missing items within 21 days after the date of the clerk’s notice of deficiency. The chief
judge or another designated judge may dismiss the appeal and assess costs if the deficiency
is not remedied within that time.” MCR 7.201 (B)(3).
The fact is that the orders denying the fee waivers in all three cases were under the
jurisdiction ofthe MSC pursuant to MCR 7.303(B)(1). A decision on the interlocutory application
regarding the denial of the fee waivers was pending with the MSC.

There could be no

determination that the Applicant did not pay fees since action from the MSC had not yet
determined that the Applicant was required to pay fees. The expectations in MCR 7.201(B)(3)
WERE NOT MET for Chief Judge Murray to issue al l three of the orders dismissing the cases.
Each of the orders sanctions the Applicant $750 payable to the clerk pursuant to Chief
Judge Murray’s own motion under MCR 7.216(C) based on the claim that the Applicant’s appeals
were frivolous and vexatious. The Applicant was sanctioned a total of $2,250 payable to the Clerk
of the Court within 28 days on July 14, 2020. The Applicant is indigent, cannot afford and has not
paid the $2,250 dollars in sanctions based on 3 orders that Chief Judge Murray did not have
jurisdiction to issue.
8

MCR 7.201(D) states that panels of three are assigned to review cases. Relative to an
application for leave to appeal, MCR 7.205(E)(2) states, “The court may grant or deny the
application; enter a final decision; grant other relief; request additional material from the record;
or require a certified concise statement of proceedings and facts from the court, tribunal, or agency
whose order is being appealed. The clerk shall enter the court’s order and mail copies to the
parties.” The records of No. 353685, 353753, 353820 (Appendices W-Y) do not indicate that a 3judge panel was docketed to review the applications in each case. Chief Judge is not a panel in
and of himself and did not have jurisdiction to make any decision on any of the three applications
in all three cases pursuant to MCR 7.201 (D) and MCR 7.205(E)(2). Chief Judge Murray violated
jurisdiction by making a claim that applications he could not review were frivolous and vexatious.
Chief Judge Murray DID NOT have jurisdiction to issue any sanctions against the Applicant.
MCR 7.216(C)(1)(a) and (b) provides very specific criteria to be met in order to make a
claim of a vexatious proceeding. COA Internal Operating Procedure 10P 7.216(C) states, “The
court rule sets forth specific bases for an assertion of a vexatious appeal or proceeding in
subsections (C)(1)(a) and (C)(1)(b). Parties moving for relief under this rule are well advised to
ensure that their motions meet the parameters stated in these subsections of the rule.” The fact is
that Chief Judge Murray provided no basis for making the claim that the applications were
frivolous and vexatious violating IOP 7.216(C).
MCR 7.216(C)(2) states, “Damages may not exceed actual damages and expenses incurred
by the opposing party because of the vexatious appeal or proceeding, including reasonable attorney
fees, and punitive damages in an added amount not exceeding the actual damages.” Since the
opposing party in each case did not file a single filing, the opposing party had not suffered any

9

damages. Chief Judge Murray had no basis under MCR 7.216(C)(2) to issue any sanction, much
less $750, in all three cases against the Applicant.
Each of the orders (Appendices B-D) states that the Clerk of the Court is to reject all filings
of the Applicant in non-criminal cases in the COA until the Applicant has paid all sanctions
pursuant to MCR 7.216(A)(7). Chief Judge Murray did not have j urisdiction to issue such an order
because MCR 8.119(C) governs over MCR 7.216(A)(7) pursuant to the Doctrine of In Pari
Materia regarding legal conflicts. See Reynolds v Hasbany MD PLLC, 323 Mich App 42 6,
(2018) (finding that where two statutes contain jurisdictional conflict, the more specific
statute must be interpreted as intending to constitute an exception to the more general statute).
MCR 8.119(C) does not provide authority for Clerks to reject filings by litigants based on failure
to pay sanctions.
Chief Judge Murray dismissed three cases, sanctioned the Applicant $2,250 and restricted
the Applicant from filing any document in any civil case based on sanction payment without
having jurisdiction to do so. Since the Applicant is indigent and cannot afford to pay the sanctions
totaling $2,250, he has been deprived of any abi lity to appeal to the COA or defend himself in any
COA case since July 14, 2020 based on orders issued without jurisdiction. Chief Judge Murray’s
three orders deprived the Applicant of due process and equal protection under the law pursuant to
Mich. Const. Art. I § 2 and U.S. Const. Amend. XIV § 1.

ORDERS TO STAY IN THE MICHIGAN SUPREME COURT
The Applicant filed an application for leave to appeal the order issued by Chief Judge
Murray in No. 353685 (Appendix B) and a motion to waive fees with the MSC on July 17, 2020.

10

The case of Wimmer v. Montano11 (“161466, 161645”) was initiated with the MSC on July 17,
2020.12 The record of No. 161466, 161645 is presented in Appendix Z.
The Applicant filed an application for leave to appeal the order issued by Chief Judge
Murray in No. 353753 (Appendix C) and a motion to waive fees with the MSC on July 17, 2020.
The case of Wimmer v. Montano13 (“161471, 161666”) was initiated with the MSC on July 20,
2020. The record of No. 161471, 161666 is presented in Appendix AA.
The Applicant filed an application for leave to appeal the order issued by Chief Judge
Murray in No. 353820 (Appendix D) and a motion to waive fees with the MSC on July 17, 2020.
The case of Wimmer v. Montanou (“161473, 161668”) was initiated with the MSC on July 17,
2020. The record of No. 161473, 161668 is presented in Appendix BB.
The records of cases No. 161466, 161645 (Appendix Z), No. 161471, 161666 (Appendix
AA) and No. 161473, 161668 (Appendix BB) reveal the following facts in each case:
•

The opposing party did not file a single document or contest the case.

•

All Applicant fees were conditionally waived since the initiation of the
interlocutory application cases that were later combined.

•

The MSC entirely failed to review and issue any orders on the Applicant’s
Motions to waive fees.

“A party who is unable to pay a filing fee may ask the Court to waive the fee by filing a
motion and an affidavit disclosing the reason for that inability. There is no fee for filing
the motion but, if the motion is denied, the party must pay the fee for the underlying filing.”
MCR 7.319(C).
“A motion may not be decided or an order entered by the Court unless all required
documents have been filed and the requisite fees have been paid.” MCR 7.315(D).

11 Wimmer v. Montano, 161466, 161645 (Mich. October 5, 2020).
12 The interlocutory application and application case were combined into one case by the Clerk.
13 Wimmer v. Montano, 161471,161666 (Mich. October 5, 2020).
14 Wimmer v. Montano, 161473, 161668 (Mich. October 5, 2020).

11

Chief Justice Bridget M. McCormack of the MSC issued three orders dismissing cases No.
161466, 161645 (Appendix E), No. 161471, 161666 (Appendix F) and No. 161473, 161668
(Appendix G) on October 5, 2020. Each of the orders instructed the Clerk of the Court to reject
all Applicant filings in civil actions cases until $1,500 owing in sanctions relative to case Nos.
161152 and 161299 were paid. The record shows that the Applicant had paid $500 in sanctions in
161152 and therefore owed $ 1000 only. The orders included no legal authority as the basis for the
order.
The basis for dismissing each of the cases was that the Applicant had not paid his filing
fees. The fact is that the Applicant’s filing fees had been conditionally waived in each case
pursuant to MCR 7.319(C). The MSC had entirely failed to rule on the Applicant’s motions to
waive fees. The Applicant had not paid fees and no decision had been made on whether a waiver
was granted when the three orders were issued. Chief Justice McCormack did not have jurisdiction
to issue the three orders dismissing the cases on October 5,2020 pursuant to MCR 7.315(D). Chief
Justice McCormack provided no legal authority to issue a filing injunction against the Applicant.
The Applicant cannot afford to pay the $1000 in sanctions owing. The Applicant has been
deprived of any ability to defend himself in any civil action appealed or to appeal any civil action
to the MSC since October 5,2020. The MSC has deprived the Applicant of his right to due process
and equal protection under the law pursuant to Mich. Const. Art. 1 § 2 and U.S. Const. Amend.
XIV § 1.

REASONS FOR GRANTING THE APPLICATION
The Petition for Writ of Certiorari associated with this case is straightforward and shows
all the violations previously stated. The facts and the law are undisputable. The relief in the

12

Petition is very simple and should just be granted without the need for appeal especially if
uncontested.
The facts show that the State of Michigan, 6th Judicial Circuit Court issued a surety bond
order (Appendix A at 5 | 1) without jurisdiction violating the Applicant’s Michigan and US
constitutional rights. As a result of the order the Applicant has had no means by which to defend
himself or litigate any issue in Trial Case 2017-854298-PP since May 11, 2020.
The Michigan Court of Appeals issued three orders (Appendices B-D) without jurisdiction
dismissing three applicant cases, sanctioning the Applicant a total of $2,250 and ordering the clerk
to reject all applicant filings till the sanction is paid. The Applicant is poor and cannot afford the
sanction. The Applicant has been deprived of any ability to appeal to or defend any civil case in
the Michigan Court of Appeals due to his indigency since July 14, 2020.
The Michigan Supreme Court issued three orders (Appendices E-G) without jurisdiction
resulting in three dismissed cases and the deprivation of the Applicant’s ability to appeal or defend
himself in any civil action in the Michigan Supreme Court since October 5, 2020.
The orders in Appendices A-G all violate the Applicant’s right to equal protection under
the law stated in both the Michigan and US constitutions.
The deprivation of a poor citizen to defend himself in three courts of law based on
violations of constitutional rights by those very same courts is an egregious travesty of justice.
Justice requires this Court to issue a stay of execution of the orders in Appendices A-G.

13

CONCLUSION
The evidence, facts, impact and legal authority overwhelmingly require that a stay of
execution of the orders in Appendices A-G be stayed pending the disposition of the Petition for a
Writ for Certiorari. The Applicant prays that this Court will grant him the needed and justified
stay of execution.
Respectfully submitted,

Mario Allan Montano, Applicant
Date: December 20, 2020

14

